2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www .cocklelegalbriefs.com

No. 20-163
BRETT C. LILLEMOE,
Petitioner.
V.

UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 12th day of November, 2020, send
out from Omaha, NE 1 package(s) containing 3 copies of the REPLY IN SUPPORT OF PETITION FOR CERTIORARI in
the above entitled case. All parties required to be served have been served by third-party commercial carrier for delivery
within 3 calendar days. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:

ALEXANDRA A.E. SHAPIRO
Counsel of Record
LAUREN M. BRODY
SHAPIRO ARATO BACH LLP
500 FIFTH AVENUE
40th Floor
New York, NY 10110
(212) 257-4880
ashapiro@shapiroarato.com
Counsel for Petitioner

Subscribed and sworn to before me this 12th day of November, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

NERAL NOTARY-State of Nalu.aska
RENEE J. GOSS

My COmm. Exp. September 5, 2023

Notary Public

9

Affiant

40174

Attorneys for Respondent
Jeffrey B. Wall
Counsel of Record

Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

Party name: United States of America

202-514-2217

